 September 30, 2002




Health Care
Reprocessed Medical Single-Use
Devices in DoD
(D-2002-153)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the website of the Inspector General
  of the Department of Defense at www.dodig.osd.mil/audit/reports or contact the
  Secondary Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMC                   Army Medical Center
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
FDA                   Food and Drug Administration
MC                    Medical Center
MTF                   Military Treatment Facility
NMC                   Naval Medical Center
SCD                   Sequential Compression Device
SUD                   Single-Use Device
          Office of the Inspector General of the Department of Defense
Report No. D-2002-153                                             September 30, 2002
   (Project No. D2001LF-0177)

               Reprocessed Medical Single-Use Devices in DoD

                                 Executive Summary

Who Should Read This Report and Why? Assistant Secretary of Defense (Health
Affairs) personnel responsible for military health system policy, Military Department
Surgeon General personnel, and military treatment facility management and operational
personnel should read this report. The report discusses the potential for significant cost
avoidance that may be achieved through the use of reprocessed medical single-use
devices.

Background. Medical single-use devices are manufactured to be used on one patient
during one medical procedure. Multiple-use devices are intended to be used more than
one time and include instructions for decontamination and resterilization.

The emergence of new materials and sterilization methods, and the increasing costs of
health care, resulted in the development of medical single-use devices and the practice of
reprocessing the devices. The practice of reprocessing medical single-use devices
increased when hospitals realized that reuse produced up to a 50 percent savings
compared with purchasing new single-use devices. Over time, the complexity of medical
single-use devices increased and third-party reprocessors evolved to meet the increased
demand of making used single-use devices patient-ready.

The DoD worldwide military health system operates an extensive system of military
treatment facilities (medical centers, hospitals, and clinics). As of September 2002, there
were 27 Army, 25 Navy, and 22 Air Force medical centers and hospitals and
approximately 460 clinics in the United States and overseas.
The Food and Drug Administration regulates medical single-use device reprocessors. On
August 14, 2000, the Food and Drug Administration issued regulatory guidance for
third-party and hospital reprocessors regarding their responsibility as manufacturers
engaged in reprocessing devices labeled for single use. Under the Food and Drug
Administration guidance, third-party and hospital reprocessors are required to undergo
the same scrutiny as original medical device manufacturers.

Results. The military health system used reprocessed single-use devices on a very
limited basis during FY 2001. Additionally, three of the six military treatment facilities
we visited were reusing single-use devices that had not been reprocessed in accordance
with Food and Drug Administration guidance, partly because the devices were not
identified as single-use devices. After considering patient safety and operational issues,
the Assistant Secretary should issue policy regarding the reuse of medical single-use
devices in the military health system. The Assistant Secretary should also initiate
discussions with the Food and Drug Administration with the intent of clarifying
single-use device labeling requirements. Also, the Military Department Surgeons
General should issue policy consistent with the guidance from the Office of the Assistant
Secretary of Defense (Health Affairs) and ensure military treatment facility personnel are
aware of and trained in the reuse of single-use devices. We recognize that cutting costs
without compromising the safety and standards of patient care is a continuous challenge
for military health system personnel. If the Assistant Secretary determines that
reprocessing is in the best interest of DoD, reprocessing initiatives can result in
procurement cost avoidances for military treatment facilities. We determined that the six
DoD military treatment facilities could have avoided procurement costs of about
$605,000 during FY 2001 by reprocessing the limited number of devices we sampled.
The full extent of potential monetary benefits will be quantifiable after military treatment
facilities obtain complete single-use device procurement and usage information, DoD
determines its level of participation in reprocessing initiatives, and the Food and Drug
Administration finalizes its approval process. Policy and guidance issued by the
Assistant Secretary concerning the reprocessing of medical single-use devices should
alleviate the material management control weakness identified by this audit. (See the
Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. A draft of this report was issued on
June 28, 2002. The Navy concurred with the report and recommendations. The Assistant
Secretary of Defense (Health Affairs) and the Army and Air Force Surgeons General did
not respond to the draft report. We request that the Assistant Secretary and the Army and
Air Force Surgeons General provide comments on the report by November 29, 2002.

See the Finding section of the report for a discussion of the management comments and
the Management Comments section of the report for a complete text of the Navy
comments.




                                             ii
Table of Contents

Executive Summary                                  i


Background                                        1


Objectives                                        2


Finding
     Reprocessing of Medical Single-Use Devices   3

Appendixes
     A. Scope and Methodology                     14
          Management Control Program Review       18
          Prior Coverage                          18
     B. Report Distribution                       19

Management Comments
     Department of the Navy                       21
Background
    Medical single-use devices (SUDs) are intended by the original manufacturer to
    be used on one patient during one medical procedure. A SUD is not intended for
    reuse on another patient or on the same patient at another time. Multiple-use
    devices are intended to be used more than one time and include instructions for
    decontamination and resterilization.

    Manufacturers began to sell SUDs because of the development of new materials,
    the increased demand for disposable devices, and because of the development of
    new sterilization methods. The practice of reusing devices labeled as single use
    began in hospitals in the late 1970s. Since then, demand for reprocessing services
    steadily increased and third-party reprocessors evolved to satisfy the cleaning,
    functional testing, packaging, and sterilization necessary to make used SUDs
    patient-ready.

    The Office of the Assistant Secretary of Defense (Health Affairs) (ASD[HA])
    establishes policy that allows the military health system to provide health support
    for military deployments and to sustain the health of active duty Service
    members, their families, and other eligible beneficiaries. The Offices of the
    Military Department Surgeons General support the medical readiness of the
    Services and develop, maintain, and operate a comprehensive and cost-effective
    health care system.

    The Food and Drug Administration (FDA) regulates SUD reprocessors. On
    August 14, 2000, the FDA issued regulatory guidance for third-party and hospital
    reprocessors regarding their responsibility as manufacturers engaged in
    reprocessing devices labeled for single use. Under the FDA guidance, third-party
    and hospital reprocessors are subject to the same FDA guidelines and scrutiny as
    original medical device manufacturers.

    The FDA has categorized SUDs into three risk categories. Class I devices are
    devices with low patient risk, such as orthopedic surgical drills. Class II devices
    are considered to have moderate patient risk, such as a cardiac mapping catheter
    used to map electrical activity of the heart. Unless exempt by the FDA, Class I
    and II devices require a premarket notification submission to the FDA. A
    premarket notification informs the FDA of a reprocessor’s intent to reprocess a
    device and includes information comparing the unique characteristics of a newly
    manufactured device with a reprocessed device. The FDA uses that information
    to determine the safety and effectiveness of the reprocessed SUDs.

    Class III devices have a high patient risk and are the most regulated. An example
    of a Class III device is a cardiac ablation catheter, which is used to treat irregular
    heartbeats. Class III devices require a third-party or hospital reprocessor to
    submit a premarket approval application or a premarket notification, depending
    on the category and unique characteristics of devices within the category. A
    premarket approval application must include valid scientific evidence
    demonstrating the safety and effectiveness of the reprocessed device. Before
    approving a premarket application, the FDA requires a satisfactory inspection of a
    reprocessing facility.


                                          1
    SUD Reprocessing. Reprocessing includes all operations performed to make a
    used SUD patient-ready or to make an opened, but unused SUD patient-ready.
    When used SUDs arrive at a third-party reprocessor, they are inspected, sorted by
    type of device, and decontaminated. After decontamination and sorting, SUDs
    are individually examined for irreversible damage, then soaked, cleaned, and
    disinfected. After cleaning, SUDs are coded to ensure that they are returned to
    their originating hospital and are entered in a computerized logging system that
    tracks the SUD through the various reprocessing cycles. If a SUD is found to
    have defects or irreversible damage, the device is rejected and destroyed.

    The next step in the reprocessing cycle includes placement of a nondestructive
    laser etching on most SUDs to allow instant retrieval of detailed information
    about the device, including the number of times the device has been reprocessed.
    Some SUDs, such as blades or saws, may require restoration. Other types of
    SUDs may require functional testing to ensure the device performs as intended by
    the original manufacturer. Any device that does not meet the standards and
    specifications of the original manufacturer is rejected and destroyed. After
    reprocessing, a “final clean” operation is performed that requires the SUDs to be
    processed with heated, reverse osmosis/deionized water.

    Packaging and resterilization is the final phase prior to shipment. Devices are
    placed in Mylar pouches with a chemical indicator strip on each pouch. Separate
    biological indicators are included during the resterilization process to confirm
    sterility. After the resterilization is complete, the reprocessed SUDs are
    quarantined and the biological indicators are removed and sent to an independent
    laboratory for testing. If the independent test results of the biological indicators
    are negative, the reprocessed SUDs are shipped to their originating hospital.


Objectives
    The overall audit objective was to evaluate the use and handling of reprocessed
    SUDs in DoD. Specifically, we evaluated the extent of reuse that occurs in the
    military health system, determined whether reprocessing was performed in
    compliance with FDA guidance, and determined whether the reuse of SUDs could
    result in monetary benefits. We also evaluated the management control program
    as it related to the audit objectives. See Appendix A for a discussion of the audit
    scope and methodology, our review of the management control program, and
    prior coverage.




                                          2
           Reprocessing of Medical Single-Use
           Devices
           The military health system used reprocessed SUDs on a very limited basis
           during FY 2001. Additionally, three of the six military treatment facilities
           (MTFs) we visited were reusing SUDs that had not been reprocessed in
           accordance with FDA guidance. Limited SUD reuse and reprocessing
           noncompliance occurred because DoD did not have a policy on the use of
           reprocessed SUDs. Also, some SUDs that had not been reprocessed in
           accordance with FDA guidance were not labeled for single use by the
           manufacturer. As a result, DoD did not take full advantage of
           opportunities available from the use of reprocessed SUDs and may be
           impacting patient safety by not complying with FDA guidance. Based on
           procurement data for a limited number of devices sampled, we calculated
           that the six DoD MTFs could have avoided procurement costs of about
           $605,000 during FY 2001 by using reprocessed SUDs. The full extent of
           potential monetary benefits will be quantifiable after MTFs obtain
           complete SUD procurement and usage information, DoD determines its
           level of participation in reprocessing initiatives, and the FDA finalizes its
           approval process.


FDA Reprocessing Guidance on SUDs
    On August 14, 2000, the FDA issued “Enforcement Priorities for Single-Use
    Devices Reprocessed by Third Parties and Hospitals.” The guidance states that
    the FDA will regulate hospitals and third-party reprocessors engaged in
    reprocessing SUDs the same way the FDA now regulates original medical device
    manufacturers. The FDA could not specify the exact number of regulated
    third-party reprocessors, but estimated that there were about 17 in the United
    States.

    The FDA guidance for third-party and hospital reprocessors outlines the
    responsibility of manufacturers engaged in reprocessing medical devices labeled
    for single use under the Federal Food, Drug, and Cosmetic Act. The guidance
    requires third-party reprocessors and hospital reprocessors to meet the same basic
    requirements that are imposed on original medical device manufacturers. The
    FDA guidance states that third-party and hospital reprocessors must:

           •   register their establishment with the FDA and provide a list of SUDs
               that are reprocessed or resterilized;

           •   establish SUD reporting systems of adverse events that may have
               involved a medical device;

           •   establish a SUD tracking system that will enable third-party
               reprocessors and hospital reprocessors to locate SUDs in the event
               corrective actions or modifications are necessary;



                                         3
           •   report to the FDA any SUD corrections or removals undertaken to
               reduce a risk to health posed by a device;

           •   establish good manufacturing practices that govern the controls,
               facilities, and methods used for the design, manufacture, packaging,
               labeling, storage, and servicing of all finished SUDs;

           •   implement a labeling requirement regarding the name and place of
               manufacture and include adequate directions for the device’s intended
               use or qualify for an exemption; and

           •   submit either a premarket notification or premarket approval
               application to the FDA prior to reprocessing a SUD.

    As of August 14, 2000, the FDA had identified more than 200 categories of
    medical SUDs that were known to be reprocessed by third-party reprocessors or
    hospital reprocessors. After August 14, 2000, third-party reprocessors were
    required to submit applications to permit them to continue reprocessing specific
    SUDs. Those applications permitted them to continue, on an interim basis,
    reprocessing SUDs pending FDA approval or rejection of the application. Upon
    approval of premarket applications, the FDA issues an “order” finding that
    devices included in the application are substantially equivalent to when they were
    originally manufactured and clears them for reprocessing and reuse. When the
    FDA rejects an application, the devices included in the submission cannot be
    reprocessed for reuse by the submitting reprocessor.

    The term “category” used in this report refers to a group of similar devices, such
    as external fixation devices. The term “type” refers to individual devices with
    unique characteristics within a category, such as carbon fiber rods.

    The types of SUDs reprocessed by third-party reprocessors can vary over time.
    For example, devices may be added when reprocessors determine that a new
    model SUD submitted from an MTF can be reprocessed under an existing
    application. Devices are removed from reprocessing lists when the SUDs are no
    longer economical to reprocess or when the FDA rejects an application.
    Additionally, not all reprocessors reprocess all categories or types of SUDs.
    Reprocessors tailor their operations to categories and types of SUDs that are
    economical and profitable to reprocess.


DoD Use of Reprocessed SUDs
    The military health system used reprocessed SUDs on a very limited basis during
    FY 2001. Additionally, three of the six MTFs that we visited were reusing SUDs
    that had not been reprocessed in accordance with FDA guidance.

    Awareness and Use of Reprocessed SUDs by DoD. Personnel from the Office
    of the ASD(HA) and the Offices of the Military Department Surgeons General
    were unsure of the extent of reprocessing in the military health system. Personnel
    at the Office of the Army Surgeon General stated that only 3 of 27 Army MTFs


                                         4
were using a third-party reprocessing contractor. Office of the Navy Surgeon
General personnel stated that none of the 25 Navy MTFs were using a third-party
reprocessor. Personnel at the Office of the Air Force Surgeon General stated that
only 2 of 22 Air Force MTFs were using a third-party reprocessor.

We visited two of the three Army MTFs and the two Air Force MTFs identified
by the Offices of the Army and the Air Force Surgeons General as using
third-party reprocessors. We also selected two Navy MTFs to visit. The two
Army and two Air Force MTFs had used the services of third-party SUD
reprocessors on a very limited basis during FY 2001. The two Navy MTFs had
not used the services of a third-party reprocessor during FY 2001. None of the
six MTFs we visited had applied to the FDA for approval to reprocess SUDs
within the MTF.

Participation in Reprocessing Initiatives. Brooke Army Medical Center
(AMC) and Keesler Air Force Medical Center (MC) were using the contract
negotiated by the Department of Veterans Affairs to reprocess SUDs. Wilford
Hall Air Force MC used a locally awarded contract to reprocess SUDs, while
Madigan AMC used a local purchase agreement. The extent of reprocessing
services used by the four MTFs during FY 2001 is shown in Table 1.

     Table 1. FY 2001 MTF Third-Party Medical SUD Reprocessing
                      Types of SUDs         Quantity        Cost to Reprocess
    MTF                Reprocessed         Reprocessed            SUDs

 Brooke AMC                  22              1,964             $ 48,321
 Madigan AMC                  2              4,332               51,548
 Keesler MC                  21                658                8,834
 Wilford Hall MC             93                641               26,445

  Total                                      7,595              $135,148




In general, MTF personnel stated that most of the SUDs reprocessed for reuse in
MTFs had slight or no impact on patient safety. For example, eight types of
SUDs reprocessed for reuse at three MTFs were sequential compression devices
(SCDs) that accounted for 6,817 (90 percent) of the 7,595 devices reprocessed.
SCDs are noninvasive FDA Class II SUDs (inflatable sleeves to improve blood
circulation) that are used on arms and legs. According to MTF personnel, SCDs
are minimal risk devices and easily replaced if failure occurs. The remaining
SUDs consisted of FDA Class I and II surgical instruments (such as burs, bits,
and blades) and one category of Class III device (ablation catheters).

Compliance With FDA Guidance. Three of the six MTFs visited were reusing
SUDs that had not been reprocessed in accordance with FDA guidance. At one
MTF, personnel identified six types of ophthalmology devices that were
resterilized within the MTF. The devices were marked for single use when


                                      5
     delivered new, but personnel were unaware of the FDA guidelines regarding the
     reprocessing of SUDs. At another MTF, personnel identified about 21 SUDs that
     had been resterilized at the MTF. MTF personnel responsible for resterilization
     were not aware that the devices were manufactured for single use or that the
     devices required reprocessing at an FDA-approved third-party or hospital
     reprocessor.

     The three MTFs had medical kits containing used external fixation SUDs that had
     been resterilized but had not undergone FDA-approved reprocessing. The
     medical kits contained external fixation SUDs and other items that are typically
     used to keep fractured bones stabilized and in alignment. The external fixation
     SUDs in the kits included pins, clamps, carbon rods, and other items that may be
     used internally or externally. External fixation SUDs are delivered clean but not
     sterile by the original manufacturer. The devices normally include sterilizing
     instructions for first-time use. Some external fixation SUDs included in our
     review were not labeled as SUDs and we had to confirm with original medical
     device manufacturers that the devices stocked at the MTFs were intended for
     single use. Command personnel at the three MTFs stated they would discontinue
     the practice of resterilizing used SUDs within the MTF.


SUD Reuse Policy and Identification of SUDs
     The limited use of reprocessed SUDs and the reuse of SUDs that had not been
     reprocessed in accordance with FDA guidance occurred because DoD had not
     developed a policy on the use of reprocessed SUDs. In addition, some of the
     SUDs were not labeled for single use by the manufacturer and were reused by the
     MTFs without proper reprocessing. We believe that a DoD policy on SUD
     reprocessing would provide increased oversight for the military health system and
     would result in the increased use of reprocessed SUDs by the MTFs and
     compliance with FDA reprocessing guidance. In developing such a policy, the
     ASD(HA) should consider patient safety and operational considerations as well as
     economic issues.
     DoD-Wide Guidance. Although the Army and the Air Force had issued limited
     guidance on the reuse of SUDs, there was no consistent and comprehensive DoD
     policy. In addition, the Navy had not issued Service-wide guidance to its MTFs
     outlining its policy on the reuse of SUDs.

            Army Policy. The Army Medical Command issued Operations
     Management Bulletin No. 7-01 on September 7, 2001. The Bulletin states that
     reuse of SUDs is an alternative that should be considered, but that use of
     reprocessed SUDs must conform to FDA guidance. The Bulletin’s general
     guidance is that Army MTFs should use third-party reprocessors. The two Army
     MTFs visited had also issued guidance on SUDs.

                     Brooke AMC. Pamphlet Number 40-2, “Infection Control
     Manual,” September 2001, reiterates Bulletin No. 7-01 and allows reprocessing
     services to be performed by third-party reprocessors. The Pamphlet prohibits
     reprocessing within the MTF.


                                         6
               Madigan AMC. Madigan AMC Memorandum 40-70, “Reuse of
Disposable Medical Equipment and Supplies,” August 14, 2001, reiterates
Bulletin No. 7-01 and permits contractual third-party reprocessing while
prohibiting reprocessing within the MTF.

        Navy Policy. The Navy had not issued guidance or policy regarding the
reuse of SUDs in its MTFs. However, the two Navy MTFs we visited had issued
limited reprocessing guidance.

              Naval Medical Center Portsmouth. Naval Medical Center
(NMC) Portsmouth’s Infection Control Manual (undated) states that SUDs are to
be used as much as possible. The Manual states that SUDs should not be reused.

               NMC San Diego. NMC San Diego’s Infection Control Manual,
June 2001, states that “generally,” reprocessing of SUDs will not occur at the
MTF.

        Air Force Policy. Air Force Instruction 44-108, “Infection Control
Program,” July 1, 2000, states that reprocessing of disposable supplies and
equipment items labeled as “single patient use only” will not occur in the MTF.
The Instruction further states that the reuse of SUDs is an alternative and that
MTFs may use a third-party reprocessing company that complies with FDA good
manufacturing practice guidelines. The two Air Force MTFs we visited also had
internal guidance in place.

               81st Medical Group, Keesler MC. Medical Group
Instruction 44-172, “Infection Control Program,” February 20, 2001, permits
contracted commercial reprocessing of SUDs. In-house reprocessing is not
authorized.

               59th Medical Wing, Wilford Hall MC. Medical Wing
Instruction 44-9, “Infection Control Manual,” April 26, 2000, allows contracted
commercial reprocessing with approval of the Infection Control Committee and
the Regional Product Evaluation and Standardization Committee. In-house
reprocessing is not authorized.
Implementation of reprocessing initiatives in DoD was limited and inconsistent
among the Services. The Service policies are relatively new and DoD did not
have a position on the use of reprocessed devices. As a result, MTFs were
tentative about establishing or expanding a reprocessing initiative. For example,
the Army and the Air Force had similar Service-wide policies, but the Navy had
none. Additionally, the two Army MTFs we visited implemented Army guidance
differently. None of the Service policies discussed how to handle devices without
single-use or multiple-use designations, how MTFs could determine the economic
viability of SUDs reprocessing, or oversight responsibilities for compliance with
FDA guidance. The lack of a comprehensive SUD reprocessing policy and the
inconsistent application of reprocessing initiatives shows that comprehensive
DoD policy and oversight, that implements FDA guidance, is warranted.

SUD Designations on Device Packages. In addition to the lack of policy,
manufacturer labeling issues were another reason why MTFs reused SUDs


                                    7
     without reprocessing the devices in accordance with FDA guidance. At the three
     MTFs that were reusing SUDs that had not been appropriately reprocessed,
     personnel were not always able to identify some devices as SUDs because the
     device labeling did not always indicate that the device was intended for single
     use.

     Personnel at the three MTFs stated they resterilized external fixation devices
     because they were not invasive. They stated that used external fixation devices
     could be resterilized using the same sterilization procedures that accompanied the
     external fixation device when it was new. They also pointed out that labels on
     new external fixation devices did not identify the devices as SUDs. The FDA
     stated that following manufacturer specifications for sterilization of new SUDs
     makes the SUD ready for first-time use only.

     FDA representatives were aware of the confusion regarding SUD labeling on
     external fixation and other medical devices. We believe that the ASD(HA)
     should work with the FDA to address the SUD labeling issue. In addition, we
     will forward information on the labeling issue to the Inspector General of the
     Department of Health and Human Services to assist in that effort.


Potential Benefits From Increased Use of SUDs
     Our analysis at six MTFs showed that significant procurement costs could have
     been avoided by using reprocessed SUDs. We determined that the six MTFs we
     visited could have avoided about $605,000 in procurement costs during FY 2001.
     If the ASD(HA) determines that DoD policy should be to pursue using
     reprocessed SUDs, the military health system could avoid costs by implementing
     reprocessing initiatives.

     Cost Avoidance From Reprocessed SUDs. At the six MTFs, we judgmentally
     selected various types of SUDs that were candidates for reprocessing and were
     known to have been used at the MTF during FY 2001. However, our analysis
     was based on FY 2001 procurement information, not actual usage. We adjusted
     FY 2001 procurement information for each device to determine the number of
     new SUDs that would have been needed had the MTF fully implemented the use
     of reprocessed SUDs. Our methodology included an approximate device
     rejection rate of 20 percent and a predetermined number of times, by category,
     that the SUD could be reprocessed. See Appendix A for details on our
     methodology for determining the factors used in our calculation of procurement
     costs that could have been avoided. Table 2 shows, by MTF, the $605,475 of
     procurement costs that we calculated could have been avoided for the SUDs we
     sampled. Additionally, the four sites that had reprocessing initiatives in place
     during FY 2001 had avoided costs of about $163,000 through the reuse of SUDs
     reprocessed by third-party contractors.




                                         8
                   Table 2. Costs That Could Have Been Avoided
                                                         Calculations of FY 2001
                                 Types of SUDs                Potential Cost
    MTF                       Selected for Analysis            Avoidances

 Brooke AMC                           31                      $140,765
 Keesler MC                           28                        61,964
 Madigan AMC                          29                        53,621
 NMC Portsmouth                       37                        93,687
 NMC San Diego                        39                       155,837
 Wilford Hall MC                      14                        99,601

  Total                                                       $605,475



Our calculations were limited to the SUDs we judgmentally selected for review
and do not include other SUDs that may be potential candidates for reprocessing.
Additionally, our calculations include the cost to reprocess SUDs but do not
include any other costs associated with reprocessing, such as contracting or
logistical costs.

In our sample of devices, cost avoidances would have been greatest for SCDs and
electrophysiology catheters. For example, Brooke AMC procured a substantial
number of SCDs during FY 2001. The center could have avoided costs of
$76,000 if it had used reprocessed SCDs. Similarly, NMC San Diego could have
avoided costs of about $73,000 by reprocessing electrophysiology catheters
during FY 2001. Table 3 shows our calculations of costs that could have been
avoided, by category of SUD, at the six MTFs we visited.




                                      9
             Table 3. Calculations of Costs That Could Have Been Avoided
                                 by Category of SUD
                               Burs, Bits,
                   External       and                                                 EP1
       MTF         Fixation     Blades       Laparoscopic   Other         SCDs      Catheter

 Brooke AMC          $5,481     $ 22,538          $12,670   $12,954      $ 75,989   $11,133
 Keesler MC               02      12,415            1,905    25,761        21,883         03
 Madigan AMC             —4       14,547           12,528    10,990        15,556         03
 NMC
  Portsmouth             —4       35,850            9,088    32,865        15,884          03
 NMC San
  Diego                  —4       21,499           11,316           02     49,935    73,087
 Wilford Hall
  MC                     —4        1,201           13,616     7,891        62,057    14,836

     Total           $5,481     $108,050          $61,123   $90,461      $241,304    $99,056
 1
   Electrophysiology.
 2
   No items selected from this category.
 3
   Electrophysiology catheters not used at MTF.
 4
   Procurement information was undeterminable.


The SUDS available for reprocessing will vary at each MTF depending on the
product lines used, the type of patient care rendered, and the number and types of
procedures performed. Also, the capability of reprocessors and the cost of
specific SUDs to be reprocessed could be a factor to consider in regional
standardization initiatives. For example, late in 2001, one third-party reprocessor
discontinued reprocessing Aircast SCDs while other third-party reprocessors
continued to reprocess that brand. Additionally, in February 2002, the FDA
issued guidance that the reprocessing of cardiac ablation catheters would no
longer be permitted. We did not exclude those SUDs from our calculations for
the four MTFs that used them during FY 2001.

Our calculations of costs that could have been avoided by using reprocessed
SUDs was not based on a statistical sample and cannot be projected to all
procurements of SUDs within an MTF or the military health system. This report
includes calculations of potential cost avoidances as a way of demonstrating the
potential for significant benefits within the military health system. The amounts
may be either overstated or understated because data concerning the use of SUDs
at MTFs and MTF inventory balances were not available. However, when the
ASD(HA) develops a standard policy for reusing SUDs, and the FDA completes
its premarket application approvals, the military health system should be able to
realize and quantify potential monetary benefits.

Economic Viability of Reprocessing. In developing a DoD reprocessing policy
and when determining the economic viability of reprocessing at individual MTFs,




                                           10
    several issues must be considered. For example, the potential cost impacts on
    prime vendor Distribution and Pricing Agreements and manufacturer incentives
    need to be evaluated.

    The competitive reprocessing pricing offered by third-party reprocessors may
    affect negotiations between original medical device manufacturers, prime
    vendors, and MTFs and could impact prices for the MTFs. A prime vendor is a
    single distributor of brand-specific medical supplies and provides MTFs the
    majority of their pharmaceutical and medical/surgical needs. The negotiated
    Distribution and Pricing Agreements and Federal Supply Schedule are used to
    identify prices for specific medical supplies.

    In addition, original medical device manufacturers may offer incentives or lower
    prices for the use of their devices. For example, three TRICARE regions had
    negotiated and signed a regional incentive agreement to purchase one brand of
    SCD for their MTFs. As part of the agreement, the manufacturer provided and
    maintained for free the arthrombic pumps that accompanied the SCDs, a value of
    approximately $975,000 for the 2-year term of the agreement.

    Original medical device manufacturers have also independently offered more
    favorable pricing than the prices negotiated through Distribution and Pricing
    Agreements. For example, in exchange for using a major manufacturer’s suture
    products, five MTFs received endoscopic equipment. The agreement allowed
    DoD to put approximately $420,000 to better use from January 2001 through
    November 2001.

    Potential Reduction of Medical Waste. In addition to the economic benefits,
    medical waste may be reduced through the reprocessing of SUDs. Increased
    emphasis on reprocessing initiatives would result in the procurement of fewer
    SUDs, therefore resulting in fewer SUDs that are discarded. We were unable to
    determine the extent of potential benefits available to the MTFs through reduced
    medical waste.

    Patient Safety. The FDA is responsible for ensuring the safety and effectiveness
    of medical devices sold in the United States and decided to regulate the
    reprocessing of SUDs to ensure patient safety was not compromised. As a result,
    reprocessors and reprocessed SUDs undergo the same review processes that apply
    to new devices coming from the original manufacturer. Complying with FDA
    guidance on SUDs will help the military health system ensure patient safety.


Conclusion
    Health care trends reflect both cost saving initiatives and demands for quality care
    and patient safety. Third-party reprocessing of used SUDs may be a viable
    alternative to procuring only new SUDs. Reprocessing in accordance with FDA
    guidance has the potential to provide MTFs with operational benefits. The
    inconsistent reprocessing and noncompliance with FDA guidance discussed in
    this report show the need for a clear and definitive DoD policy regarding the
    reuse


                                        11
    of SUDs. The Office of the ASD(HA) should determine whether reusing SUDs is
    in the best interest of the military health system. Any policy on the reuse of
    SUDs must consider patient safety.

    Recently, the President and the Office of Management and Budget issued “The
    President’s Management Agenda” for FY 2002. The agenda provides strategies
    for improving the management and performance of the Federal Government. One
    of the program initiatives in the Agenda is to improve coordination of health care
    by sharing data on areas of concern between the Department of Veterans Affairs
    and DoD. As part of a strategy to coordinate Department of Veterans Affairs and
    DoD programs and systems, a Veteran Affairs/DoD Health Executive Council
    was established. One of the goals of the Council is to provide the best service
    through new initiatives and increased efficiency for the benefit of Service
    members, veterans, and the taxpayer. We believe that using reprocessed SUDs,
    when reprocessed in compliance with applicable FDA guidelines, is a viable
    consideration for the military health system. We also believe that the use of
    reprocessed SUDs corresponds with the Council’s efforts to coordinate health
    care services. To assist in those efforts, we will provide a copy of our final report
    to the Veteran Affairs/DoD Health Executive Council.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Assistant Secretary of Defense (Health Affairs):

            a. Issue policy and guidance that states the DoD position on the reuse
    of single-use devices. If the Assistant Secretary determines that reprocessing
    is in the best interest of the military health system, the policy should, at a
    minimum:

                (1) Require that the program be consistent with Food and
    Drug Administration guidance.

                  (2) Provide guidance on how to handle medical devices
    without a single-use or multiple-use designation.

                  (3) Provide guidance for military treatment facilities to use in
    determining the economic viability of single-use device reprocessing,
    including consideration of the impacts of reprocessing on other initiatives,
    such as the Prime Vendor program, manufacturer incentives, and regional
    standardization efforts.

                  (4) Assign oversight responsibilities to ensure that military
    treatment facilities comply with Food and Drug Administration guidance.

          b. Initiate discussions with the Food and Drug Administration and
    work toward clarifying single-use device labeling requirements with that
    agency.



                                         12
Management Comments Required. The Assistant Secretary of Defense (Health
Affairs) did not comment on the recommendation. We request that the Assistant
Secretary provide comments in response to the final report.

2. We recommend that the Military Department Surgeons General:

       a. Issue implementing guidance consistent with policy issued by the
Office of the Assistant Secretary (Health Affairs).

        b. Ensure adequate awareness and training for military treatment
facility personnel regarding the reuse of single-use devices.

Management Comments. The Navy concurred and stated that a policy to reuse
SUDs should include a thorough risk assessment, a legal assessment of the impact
on liability risk and on informed consent procedures, a robust quality control
system, and an assessment of and plan for potential adverse publicity.

Audit Response. The Navy comments are fully responsive and additional
comments are not required. We agree that a decision to establish a policy to reuse
SUDs in the military health system should include consideration of numerous
issues. We expect that the ASD(HA) will consider patient safety and other issues
such as those stated in the Navy response when establishing the DoD position.

The Army and Air Force Surgeons General did not provide comments on
Recommendation 2. We request that the Army and Air Force Surgeons General
provide comments on the recommendation in response to the final report.




                                    13
Appendix A. Scope and Methodology
   Our review focused on the reuse of medical SUDs in the military health system
   that occurred during FY 2001. We also reviewed reprocessing guidance issued by
   the FDA from August 2000 through February 2002 and obtained Service and
   MTF-specific guidance that discussed reprocessing and reuse of SUDs in MTFs.
   The Service guidance was issued from April 2000 through September 2001.

   Neither the Office of the ASD(HA) nor the Offices of the Surgeons General
   actively managed reprocessing programs in DoD or the MTFs. We queried
   personnel from the Office of the ASD(HA) and the Offices of the Military
   Department Surgeons General to determine the extent of reprocessing, if any, in
   the military health system.

   Personnel from the Office of the Army Surgeon General stated that only 3 of
   27 Army MTFs were using a third-party reprocessing contractor. Personnel from
   the Office of the Navy Surgeon General stated that none of the 25 Navy MTFs
   were using a third-party reprocessor. Personnel at the Office of the Air Force
   Surgeon General stated that 2 of 22 Air Force MTFs were using a third-party
   reprocessor.

   We visited four of the five MTFs identified by personnel in the Offices of the
   Army and Air Force Surgeons General as using a third-party reprocessing
   contractor and also visited two Navy medical centers. At those locations, we
   determined the extent of ongoing reprocessing initiatives, if any; identified SUD
   procurement information to determine costs that could have been avoided; and
   evaluated MTF compliance with FDA guidelines.

   Two of the four MTFs reprocessed SUDs through orders placed against a
   Government-wide reprocessing contract awarded by the Department of Veterans
   Affairs. We discussed the contract with personnel from that Department and
   obtained FY 2001 and FY 2002 reprocessing fee schedules.

   The Department of Veterans Affairs had awarded a reprocessing services contract
   to Alliance Medical Corporation in Phoenix, Arizona. We visited Alliance
   Medical Corporation where we observed their reprocessing operation. We
   obtained a master list of items that Alliance reprocessed during FY 2001. We
   also obtained limited information on SUD reprocessing from various Internet
   sites.

   We performed the audit from August 2001 through June 2002 in accordance with
   generally accepted government auditing standards, except that the results
   discussed in this report were based on SUD procurement information that we
   obtained from six MTFs; actual usage information was not available. We
   recognize that true monetary benefits can only be calculated from usage data.
   Because we used the procurement data to demonstrate that the potential exists for
   significant cost avoidance, rather than to project potential monetary benefits, that
   limitation does not materially impact the audit results.




                                        14
Neither the FDA nor DoD maintains lists of SUDs that are candidates for reuse.
Therefore, to determine the relative extent that MTFs could use reprocessed
SUDs and to demonstrate the significance of potential cost avoidances, we
obtained a master list of items that one reprocessor (Alliance Medical
Corporation) had processed during FY 2001. We used six categories of SUDs
that Alliance Medical Corporation identified as commonly generating savings for
hospitals. The categories consisted of burrs, bits, and blades; cardiac catheter
devices; external fixation devices; laparoscopic devices; sequential compression
devices; and other miscellaneous devices. We adjusted the master list to include
only SUDs that were candidates for the complete reprocessing cycle, excluding
open but unused SUDs because they were candidates only for resterilization, not
for reprocessing.

We compared SUDs procured at each of the six MTFs during FY 2001 with the
adjusted master list of SUDs from the third-party reprocessor. From those SUDs
identified, we judgmentally selected a small sample of SUDs at each MTF. For
those devices, we obtained SUD nomenclatures, units of issue, number purchased,
original manufacturer serial numbers, and unit prices. We also interviewed and
obtained information from MTF risk managers; central sterile supply, infection
control, and logistics personnel; and original medical device manufacturers.

Reprocessing Model. We developed a model to determine the quantity of new
SUDs that would have to be procured when an MTF begins reprocessing. The
model calculates the number of SUDs that would be reprocessed based on three,
five, and six reprocessing cycles, depending on the type of device. The model
generates a separate result for each annual demand, incorporating a 20 percent
rejection rate and the reprocessing cycles.

The model employs continuous approximations for the demand and use of SUDs.
It does not attempt to account for the many variables inherent to the use of
particular devices, such as procurement cycles, demand histories, or minimum
stockage levels. The model divides FY 2001 into 24 equal calculation periods
(semi-monthly periods) and includes units that are returned from reprocessing.
The following bullets list and discuss conditions and assumptions in our model.

       •   The model treats FY 2001 as the first reprocessing year and includes
           some start-up periods during which no items are returned from
           reprocessing.

       •   The model assumes that no “pre-loaded” units were available to be
           sent to reprocessing at the start of the year.

       •   The model divides annual demand equally into the semi-monthly
           periods, often resulting in fractional units.

       •   The model assumes smooth, continuous consumption of units within
           each semi-month period.

       •   The model assumes reprocessed items are used before any purchased
           items in the periods.



                                   15
       •   The model assumes new devices are received and available for use on
           the first day of a semi-monthly period.

       •   The model assumes that used devices are packaged and sent to an
           FDA-approved third-party reprocessor on the last day of the
           semi-monthly period during which they were used.

       •   The model assumes that reprocessing turnaround time is three semi-
           monthly periods.

       •   The model does not address emergency stock levels.

       •   The model uses a predetermined number of times a SUD could be
           reasonably expected to be reprocessed, depending on the category of
           the device. (That number was based on Alliance Medical Corporation
           information on the average number of times a SUD could be
           reprocessed. The number of times a SUD could be reprocessed varied
           by category: six times for cardiac ablation catheters and five times for
           SCDs. All other SUDs typically could be reprocessed three times.)

       •   The model uses a 20 percent rejection rate for each reprocessing cycle.
           The rate was applied to devices sent for reprocessing and represents
           those items that could not be reprocessed due to damage or some other
           imperfection. (The rejection rate was developed based on input from
           Alliance Medical Corporation.)

Calculation of Potential Cost Avoidances. SUD usage information and
beginning inventory balances were not available from the six MTFs we visited;
therefore, we used FY 2001 procurement costs and quantities for our calculations.
We excluded from our costing calculations those SUDs with a procurement cost
of less than $10 per unit or a procurement quantity of less than 12. We used a fee
schedule from the Government-wide reprocessing contract to determine revised
reprocessing costs. The following figure illustrates the methodology used to
determine cost avoidances from reprocessing initiatives for those devices selected
for review.




                                    16
The cost that could have been avoided is the difference between annual
procurement costs without reprocessing and a revised annual procurement cost
with reprocessing. Those amounts may be high or low, depending on the
differences between usage and procurement.

Use of Technical Assistance. Personnel from the Quantitative Methods
Division, Office of the Inspector General of the Department of Defense reviewed
the methodology we used to determine potential cost avoidances discussed in this
report.

Use of Computer-Processed Data. We relied on various computer-processed
procurement and pricing data from the MTFs without performing tests of general
and application system controls to confirm the reliability of the data. We did not
establish the reliability of the data because the data were used only to determine
the relative extent of SUDs procured by the MTFs we visited and the relative
significance of potential cost avoidances. Not establishing the reliability of the
data did not materially affect the results of our audit.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the DoD Inventory Management high-risk area.



                                    17
Management Control Program Review
     DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, require DoD organizations to implement a comprehensive
     system of management controls that provides reasonable assurance that programs
     are operating as intended and to evaluate the adequacy of the controls.

     Scope of the Review of the Management Control Program. We reviewed the
     adequacy of the controls over the reuse of SUDs in the MTFs and the Military
     Department controls over in-house SUD reprocessing. We also reviewed the
     adequacy of management’s self-evaluation of those controls.

     Adequacy of Management Controls. We identified a material management
     control weakness involving SUD reprocessing in DoD. DoD management
     controls for SUD reprocessing had not been developed because the Office of the
     ASD(HA) did not have an established policy regarding SUD reprocessing.
     Recommendation 1., if implemented, will provide guidance and improve the
     oversight of SUD reprocessing programs in DoD. A copy of the report will be
     provided to the senior official responsible for management controls in the Office
     of the ASD(HA).

     Adequacy of Management’s Self-Evaluation. MTF personnel did not identify
     SUD reprocessing as an assessable unit and, therefore, did not identify or report
     the material management control weakness identified by the audit.


Prior Coverage
     During the last 5 years, the General Accounting Office has issued one report
     discussing reprocessing of SUDs. Unrestricted General Accounting Office
     reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
     Inspector General of the Department of Defense reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

General Accounting Office
     General Accounting Office Report No. HEHS-00-123, “Single-Use Medical
     Devices: Little Available Evidence of Harm From Reuse, but Oversight
     Warranted,” June 20, 2000




                                         18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Personnel and Readiness)
  DoD-Veteran Affairs Executive and Health Benefits Council
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Surgeon General of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of Health and Human Services




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          20
Department of the Navy Comments




                     21
22
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Michael A. Joseph
Timothy J. Tonkovic
Robert J. Hanlon
Anna P. Martin
Danny O. Hatten
Robin T. Parrish
John S. Epps
Carmen J. Malone
Frank C. Sonsini
H. David Barton
Elizabeth L.N. Shifflett
